                                  Closeout for M96100035

    This case opened on October 23, 1996, when the complainant,' who works a t a
research center (the Center), alleged that an NSF proposal2 he was asked to review
contained ideas generated in his Center. He said he had received an NSF grant3 to
pursue those ideas a t the Center. Specifically, the complainant alleged that the
subject,4 his former post-doctoral researcher who was now collaborating with the PI
and co-PI of the proposal, had taken a specific implementation of a n idea from his
grant and given it, along with other ideas, to the PI and co!PI for inclusion in their
NSF proposal. He said the subject had seen a draft version of his grant and had
suggested some changes to it. The complainant thought it was inappropriate for the
subject to take the idea and its implementation, which were developed in the draft,
to other researchers because the complainant had originated the project. He also
told us the subject had planned to stay a t the Center to participate on this grant, as
evidenced by the inclusion of his CV in the grant.           11,

                                                                    /
    The PI and co-PI told us that the subject had approached them and suggested a
way for them to incorporate the questioned idea and its imblementation in their
research. They said he did not tell them that he had discussed the idea with the
complainant or t h a t it had been used in the grant. The subject told us he developed
the idea and its implementation as part of his thesis research. He provided a copy
of a manuscript he, with his advisor and another scientist, had presented a t a
conference and submitted for publication.5 He said the complainant had not told
him about his grant proposal, he had not worked on it, and he had not given the
complainant permission to use his CV for that project.
    We compared the subject's manuscript and the grant and found that the idea
and its implementation were the same in both. The subject told us he had given the
complainant a copy of the manuscript to help the complainant stay informed about
the projects the subject was working on while a t the Center and to engage the
complainant's interest in those projects. He said he was not aware material from
his manuscript or his CV would be used in the complainant's grant proposal.
   Based on the information we had at that time, it appeared that the complainant
had made a bad-faith allegation against the subject. We asked the complainant
some questions to help our understanding of how the subject's idea and
implementation were used in his grant proposal. He said, contrary to the subject's
statements, that the subject had participated in the preparation of the grant and
provided the subject's progress reports that confirmed this. He said he was


     (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).
   5 The manuscript was written and submitted before the subject began working a t the Center.




                                           Page 1of 2                                     M96-35
                                                           il
                                                           '1
                             Closeout for M.96100035       1
                                                           !i




unaware of the subject's manuscript that contained the idJa and its implementation
or else he would have referenced it. The complainant saidlthe subject had
suggested using the idea and implementation in the grantlproposal because it was
applicable to the proposed research. He also said he included the subject's CV
because the subject had given him indications that he woyld continue to work a t the
Center and remain involved in the research described in the grant proposal.
However, he said the subject left his lab.                /I
                                                          li
                                                           ~i
   We concluded the subject originated the idea and its iniplementation and had a
right to use that material with the PI and co-PI. ~ o w e v e dit appears the subject
was not forthcoming in his dealings with the complainant "and also with the PI and
co-PI. The complainant had reason to believe the subject had planned to carry out
this research a t the Center, but had instead inappropriately given it to the PI and
co-PI. The PI and co-PI were unaware the subject had prd?viously shared his idea
and its implementation with the complainant or that thathaterial was in the
complainant's grant. Based on the information we have, the practices of the subject
are not models of best practice, but do not constitute misconduct in science.
Therefore, this inquiry is closed and no further action willhe taken on this case.

cc: Integrity, IG




                                     Page 2 of 2
